                            DEPARTMENT OF HOMELAND SECURITY
                                    Office of Inspector General – Office of Audits
                                              San Francisco Field Office
                                             1111 Broadway, Suite 1200
                                           Oakland, California 94607-4052


                                                      February 5, 2004

MEMORANDUM

TO:                  Jeff Griffin
                     Regional Director
                     FEMA Region IX




FROM:                Robert J. Lastrico
                     Field Office Director

SUBJECT:             Audit of California Department of Water Resources
                     Sacramento, California
                     Public Assistance Identification Number 000-92004
                     FEMA Disaster Number 1155-DR-CA
                     Audit Report Number DS-09-04
________________________________________________________________________________________

The Office of Inspector General (OIG) audited public assistance grant funds awarded to the
California Department of Water Resources, Sacramento, California (Department). The
objective of the audit was to determine whether the Department expended and accounted for
Federal Emergency Management Agency (FEMA) funds according to federal regulations and
FEMA guidelines.

The Department received an award of $4.1 million from the California Office of Emergency
Services (OES), a FEMA grantee, for debris removal, emergency protective measures, and
repairs of water control facilities. The award resulted from severe storms, flooding, and mud
and land slides that occurred from December 28, 1996, to April 1, 1997. The award provided
75 percent FEMA funding for 22 small projects and 16 large projects.1 The audit covered the
period December 28, 1996, to July 17, 2002, and included the review of 15 large projects
with a total award of $3.8 million (see Exhibit).


1
    Federal regulations in effect at the time of the disaster set the large project threshold at $46,000.

This report remains the property of the DHS Office of Inspector General (DHS-OIG) at all times and, as
such, is not to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies
of this report should be immediately forwarded to the DHS Office of Counsel to the Inspector General to
ensure strict compliance with all applicable disclosure laws.
The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to Government Auditing Standards issued by the Comptroller
General of the United States. The audit included the review of FEMA, OES, and Department
records, and other auditing procedures determined necessary under the circumstances.


                                  RESULTS OF AUDIT

The Department generally expended and accounted for public assistance funds according to
federal regulations and FEMA guidelines for 5 of the 15 large projects reviewed. However,
the Department’s claim for 10 projects contained $762,265 in questionable costs
(FEMA’s share - $571,699). The questioned costs consisted of $307,631 in unsupported
force account labor costs, $189,625 in unsupported project costs, $144,912 in excessive force
account fringe benefits, and $120,097 in duplicate force account labor costs.

Finding A – Unsupported Force Account Labor Costs

The Department’s claim included $307,631 in force account labor costs not supported by
adequate documentation. The table below identifies the project numbers and the amounts
questioned.

                       Project No.      Amount Questioned
                         98676              $164,286
                         75010                 60,959
                         75022                 52,876
                         75009                 21,822
                         75011                  3,628
                         98686                  2,688
                         75020                  1,372
                          Total             $307,631

Details regarding the lack of adequate documentation are provided below:

•   The Department claimed $164,286 under project 98676 and $52,876 under project 75022
    for force account labor and benefits costs incurred by two Divisions of the Department.
    Neither the Department nor the two Divisions retained the time sheets, attendance
    records, or accompanying payroll reports to support any of the overtime labor hours
    claimed.

•   The Department claimed $54,642 under project 75010 and $7,366 under project 75009
    for overtime labor costs for its supervisory personnel (Category 4C employees).
    According to Department officials, Category 4C employees are supervisors that are not
    recognized as an eligible class under State bargaining regulations to receive overtime


                                              2
    pay. While the OIG auditor was not provided and did not review the State bargaining
    regulations, Department officials stated that the overtime hours for Category 4C
    employees were mistakenly claimed due to an oversight when preparing and certifying
    the claim for reimbursement.

•   The Department’s claim for projects, 75009, 75010, 75011, 98686, and 75020
    included $14,456, $6,317, $3,628, $2,688, and $1,372, respectively, for force
    account labor hours that were not supported by adequate documentation to
    establish if hours claimed were regular or overtime hours. Department officials
    attributed the unsupported hours to the employees’ unfamiliarity with the disaster
    codes used by the Department to support disaster-related expenditures. As a
    result, the Department may have inadvertently claimed disaster-related regular
    hours instead of overtime hours.

According to Title 44, Code of Federal Regulations, Section 13.20(b) [44 CFR 13.20(b)], the
Department is required to maintain accounting records that identify how FEMA funds are
used. Since force account labor costs were not adequately supported and did not identify
how FEMA funds were used, the OIG questioned $307,631.

Finding B – Unsupported Project Costs

The Department claimed $189,625 for two projects that were not supported with invoices or
similar documentation.

•   For project 98685, the Department claimed $152,095 consisting of $140,192 in material
    costs, $3,717 in equipment costs, and $8,186 in contract labor costs. The Department was
    unable to provide any payment records to support the costs claimed.

•   For project 75013, the Department claimed $37,530 in material costs but had no
    documentation to support that these costs were incurred and were disaster-related.

According to 44 CFR 13.20(b), the Department is required to maintain accounting records
that identify how FEMA funds are used. Since the costs identified above were not supported,
the OIG could not confirm that these cost were incurred and disaster-related. Therefore,
$189,625 was questioned.

Finding C– Excessive Force Account Fringe Benefits

The Department’s claim for six projects included $144,912 in excessive fringe benefits. In
most cases, the Department applied a fringe benefits rate of 26.2 percent on its force account
overtime labor costs but payroll records could only support a rate of 7.65 percent. The table
below identifies project numbers, the fringe benefits rate applied by the Department, the



                                              3
actual fringe benefits rate for overtime labor, the excessive rate applied to overtime labor
costs, and the resultant questioned costs.

        Project      Applied         Actual        Excessive         Amount
        Number        Rate            Rate           Rate           Questioned
         75010        26.2 %         7.65%          18.55%           $ 51,770
         75009        26.2 %         7.65%          18.55%             33,924
         98688        26.1 %         7.65%          18.54%             20,316
         98686        26.2 %         7.65%          18.55%             17,319
         75011        26.2 %         7.65%          18.55%             13,239
         75020        26.2 %         7.65%          18.55%              8,344
         Total                                                       $144,912

According to 44 CFR 13.20(b), grant recipients are required to maintain accounting records
that identify how FEMA funds are used. Also, Office of Management and Budget Circular
A-87, Attachment B, paragraph 11d(1), states that the costs of fringe benefits are allowable
to the extent that the benefits are reasonable and are required by law, governmental
unit-employee agreement, or an established policy of the governmental unit. Because the
fringe benefits rate applied to overtime labor was not supported by source documentation and
was not reasonable, the OIG questioned $144,912.

Finding D– Duplicate Force Account Labor Costs

The Department claimed force account labor costs of $120,097 twice under project 98686.
The Department claimed $120,097 for 3,712 overtime hours worked in January 1997 and
inadvertently claimed these same costs in February 1997 resulting in the duplicate FEMA
reimbursement to the Department. Thus, the OIG questioned $120,097 of duplicate labor
costs.

                                   RECOMMENDATION

The OIG recommends that the Regional Director, FEMA Region IX, in coordination with
OES, disallow questioned costs of $762,265.


          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The OIG discussed the results of this audit with Department and OES officials on
November 12, 2003. These officials concurred in principle with the findings and
recommendation. On December 2, 2003, the OIG followed up with the Department to obtain
any further support for the issues discussed in this report. The OIG also notified FEMA
Region IX officials of the audit results on January 13, 2004.



                                               4
Please advise this office by April 5, 2004, of actions taken to implement our
recommendation. Should you have any questions concerning this report, please contact me at
(510) 627-7011. Key contributors to this assignment were Greg Suko and Ravi Anand.




                                            5
                                                                          Exhibit


                              Schedule of Audited Projects
                       California Department of Water Resources
                                 Sacramento, California
                   Public Assistance Identification Number 000-92004
                         FEMA Disaster Number 1155-DR-CA


             Project          Amount           Amount          Finding
             Number           Awarded         Questioned      Reference
              74694          $ 94,218          $       0
              75009            259,345           55,746         A, C
              75010             426,266         112,729         A, C
              75011             282,840          16,867         A, C
              75013             322,932          37,530          B
              75020              63,075            9,716        A, C
              98676             535,421         164,286         A, C
              98677             233,109                0
              98685             152,095         152,095           B
              98686             244,443         140,104        A, C, D
              98688             174,644          20,316           C
              98735             128,328                0
              98738             258,862                0
              98679             351,720                0
              75022             302,366          52,876           A
              Totals         $3,829,664        $762,265


Finding Reference Legend:
A – Unsupported Force Account Labor Costs
B – Unsupported Project Costs
C – Excessive Force Account Fringe Benefits
D – Duplicate Labor Costs




                                              6
